APPENDIX A

Case 5:20-cv-03017-SAC Document 18 Filed 07/24/20 Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF KANSAS
RONALD E. JOHNSON,
Plaintiff,
CASE NO. 20-3017-SAC

v.
DEREK SCHMIDT, et al.,
Defendants.

MEMORANDUM AND ORDER
Plaintiff brings this pro se civil rights action pursuant to 42 U.S.C. § 1983. Plaintiff is
incarcerated at the El Dorado Correctional Facility in El Dorado, Kansas (“EDCF”). The Court
granted Plaintiff leave to proceed in forma pauperis /Doc. 6). On May 5, 2020, the Court
entered a Memorandum and Order and Order to Show Cause /Doc. 9) (“MOSC”), granting
Plaintiff until June 5, 2020, in which to show good cause why his Complaint should not be
dismissed for the reasons set forth in the MOSC. Plaintiff filed a motion for an extension of time
to respond to the MOSC /Doc. ID and a motion for leave to file an amended complaint
/Doc. 12J. The Court entered an Order /Doc, 134 granting Plaintiff an extension of time until
July 6, 2020, to respond to the MOSC and denying Plaintiffs motion for leave to amend his
complaint for failure to attach a proposed amended complaint. This matter is before the Court on
Plaintiff motion for leave to amend complaint /Doc. 15T Response /Doc. 16J to the Court’s
MOSC, and motion to appoint counsel /Doc. 171.
The Court found in the MOSC that Plaintiffs claims relate to his state court criminal
case, and he names as defendants eight state court judges, the attorney general, the district
attorney and two assistant district attorneys, the Wyandotte County Sheriff, nine employees from
the Kansas Department of Corrections (“KDOC”), and legal counsel for the KDOC. The Court
l

12

Case 5:20-cv-03017-SAC Document 18 Filed 07/24/20 Page 2 of 6

found that Plaintiffs official capacity claims against the state officials for monetary damages are
barred by sovereign immunity. Furthermore, state officers acting in their official capacity are not
considered “persons” against whom a claim for damages can be brought under § 1983. Will v.
Mich. Dept, ofState Police, 491 U.S. 58. 71 (1989).
The Court also found in the MOSC that Plaintiffs claims against the state and county
prosecutors fail on the ground of prosecutorial immunity, and his claims against the multiple
state court judges should be dismissed on the basis of judicial immunity. The court also found
that if Plaintiff is relying on the participation by the KDOC defendants in his confinement, he
must allege a “misuse of power, possessed by virtue of state law and made possible only because
the wrongdoer is clothed with the authority of state law.” Callaway v. Werholtz, No. 12-2527EFM, 2013 WT. 2297139. at *3 (D. Kan. May 24, 2013) (defining “acting under color of state
law” as required by § 1983). Plaintiff has not alleged a misuse of power by these defendants.
Furthermore, “[ojfficials who act pursuant to a ‘facially valid court order’ enjoy quasi-judicial
immunity from suit under § 1983.”

Callaway, 2013 WL 2297139. at *4 (citing Turney v.

O’Toole, 898 F.2d 1470. 1472 (10th Cir. 1990) (holding that state officials were absolutely
immune from § 1983 liability for confining the plaintiff in a state hospital pursuant to a judicial
order)). Plaintiff does not allege that these defendants failed to follow court orders.
The Court also found that to the extent Plaintiff challenges the validity of his sentence in
his state criminal case, his federal claim must be presented in habeas corpus. “[A] § 1983 action
is a proper remedy for a state prisoner who is making a constitutional challenge to the conditions
of his prison life, but not to the fact or length of his custody.” Preiser v. Rodriguez, 411 U.S,
475. 499 (1973) (emphasis added). When the legality of a confinement is challenged so that the
remedy would be release or a speedier release, the case must be filed as a habeas corpus

13

Case 5:20-cv-03017-SAC Document 18 Filed 07/24/20 Page 3 of 6

proceeding rather than under 42 IJ.S.C. § 1983. and the plaintiff must comply with the
exhaustion of state court remedies requirement. Heck, 512 U.S. at 482: see also Montez v.
McKinna, 208 F.3d 862. 866 (10th Cir. 2000) (exhaustion of state court remedies is required by
prisoner seeking habeas corpus relief); see 28 U.S.C. § 2254fb¥l¥At (requiring exhaustion of
available state court remedies). “Before a federal court may grant habeas relief to a state
prisoner, the prisoner must exhaust his remedies in state court. In other words, the state prisoner
must give the state courts an opportunity to act on his claims before he presents those claims to a
federal court in a habeas petition.” O’Sullivan v. Boerckel, 526 U.S. 838. 842 (1999); see
Woodford v. Ngo, 548 TT.S. 81. 92 (2006); Rose v. Lundy, 455 U.S. 509. 518-19 (1982).
Therefore, any claim challenging his state sentence is not cognizable in a § 1983 action.
Likewise, before Plaintiff may proceed in a federal civil action for monetary damages
based upon an invalid conviction or sentence, he must show that his conviction or sentence has
been overturned, reversed, or otherwise called into question. Heck v. Humphrey, 512 U.S. All
(1994). If Plaintiff has been convicted and a judgment on Plaintiffs claim in this case would
necessarily imply the invalidity of that conviction, the claim may be barred by Heck. In Heck v.
Humphrey, the United States Supreme Court held that when a state prisoner seeks damages in a
§ 1983 action, the district court must consider the following:
whether a judgment in favor of the plaintiff would necessarily imply the invalidity
of his conviction or sentence; if it would, the complaint must be dismissed unless
the plaintiff can demonstrate that the conviction or sentence has already been
invalidated.
Heck v. Humphrey, 512. U.S. 477. 487 (1994). In Heck, the Supreme Court held that a § 1983
damages claim that necessarily implicates the validity of the plaintiffs conviction or sentence is
not cognizable unless and until the conviction or sentence is overturned, either on appeal, in a
collateral proceeding, or by executive order. Id. at 486-87. Plaintiff has not alleged that the
3

14

Case 5:20-cv-03017-SAC Document 18 Filed 07/24/20 Page 4 of 6

conviction or sentence has been invalidated, and in fact that is the relief he seeks in this civil
rights action.
Plaintiffs response to the MOSC and proposed amended complaint fail to cure the
deficiencies set forth in the MOSC. Plaintiffs proposed amended complaint continues to seek
monetary relief from defendants that are immune from suit. Plaintiff also continues to seek
release from incarceration despite the Court advising him that such relief must be sought
pursuant to a habeas action.
In his Response, Plaintiff alleges that the state court actors should not enjoy Eleventh
Amendment immunity and that the state court judges acted outside of their judicial capacity.
However, as noted in the Court’s MOSC, a state judge is absolutely immune from § 1983
liability except when the judge acts “in the clear absence of all jurisdiction.”

Stump v.

Sparkman, 433 II.S. 349. 356-57 (1978) (articulating broad immunity rule that a “judge will not
be deprived of immunity because the action he took was in error, was done maliciously, or was
in excess of his authority . . . .”); Hunt v. Bennett, 17 F.3d 1263. 1266 (10th Cir. 1994). Only
actions taken outside a judge’s judicial capacity will deprive the judge of judicial immunity.
Stump, 433 TI.S. at 356-57. Plaintiff alleges no facts whatsoever to suggest that the defendant
judges acted outside of their judicial capacity.
Plaintiff alleges that the Defendants were acting in a “Covid Pack” to deprive him of his
constitutional rights. If Plaintiff is alleging some type of conspiracy, he has failed to allege any
factual support. Bare conspiracy allegations fail to state a claim upon which relief may be
granted. To state a claim for conspiracy, a plaintiff must include in his complaint enough factual
allegations to suggest that an agreement was made. Gee v. Pacheco, 627 F.3d 1178. 1183 (10th
Cir. 2010). A bare assertion of conspiracy, absent context implying a meeting of the minds, fails

4

15

Case 5:20-cv-03017-SAC Document 18 Filed 07/24/20 Page 5 of 6

to raise a right to relief above the speculative level. Id. Here, Plaintiff provides no factual
information whatsoever to demonstrate any type of agreement was made between anyone. Such
a conclusory allegation fails to state a plausible claim for relief.
Plaintiffs claims are based on his argument that the Kansas state courts improperly ruled
that the Supreme Court’s decision in Alleyne did not apply retroactively to provide Plaintiff with
relief.

See United States v. Stang, 561 F. App’x 772. 773 (10th Cir. May 28, 2014)

(unpublished) (stating that “[w]e have held that, although the Supreme Court in Alleyne did
recognize a new rule of constitutional law, the Supreme Court did not hold that the new rule was
retroactively applicable to cases on collateral review”) (citing In re Payne, 733 F.3d 1027. 102930 (10th Cir. 2013)); see also United States v. Rogers, 599 F. App’x 850. 851 (10th Cir.
April 17, 2015) (unpublished) (stating that “[b]ut Alleyne wasn’t decided until after Mr. Roger’s
sentencing, we have held that Alleyne doesn’t apply retroactively on collateral review”).
The Rooker-Feldman doctrine establishes that a federal district court lacks jurisdiction to
review a final state court judgment because only the Supreme Court has jurisdiction to hear
appeals from final state court judgments. See Bear v. Patton, 451 F.3d 639. 641 (10th Cir.
2006). The doctrine prevents a party who lost in state court proceedings from pursuing “what in
substance would be appellate review of the state judgment in a United States district court, based
on the losing party’s claim that the state judgment itself violates the loser’s federal rights.”
Johnson v. DeGrandy, 512U.S.997. 1005-06 (1994).
Plaintiff has failed to cure the deficiencies set forth in this Court’s MOSC and has failed
to show good cause why his Complaint should not be dismissed for failure to state a claim.
IT IS THEREFORE ORDERED THAT this matter is dismissed for failure to state a
claim.

5

16

Case 5:20-cv-03017-SAC Document 18 Filed 07/24/20 Page 6 of 6

IT IS FURTHER ORDERED THAT Plaintiffs motion for leave to amend (Doc. 141
and motion to appoint counsel (Doc. 16) are denied.
IT IS SO ORDERED.
Dated July 24, 2020, in Topeka, Kansas.

s/ Sam A. Crow
Sam A. Crow
U.S. Senior District Judge

6

17

APPENDIX B

Appellate Case: 20-3168

Document: 010110442580

Date Filed: 11/24/2020

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

November 24, 2020

RONALD E. JOHNSON,

Christopher M. Wolpert
Clerk of Court

Plaintiff - Appellant,
v.
DEREK SCHMIDT, Attorney General for
the State of Kansas; JENNIFER L.
MYERS, Judge, Wyandotte County
District Court; R. WAYNE LAMPSON,
Chief Judge, Wyandotte County District
Court; DEXTER BURDETTE, Chief
Judge, Wyandotte County District Court;
LAWTON NUSS, Chief Justice, Kansas
Supreme Court; LEE JOHNSON, Justice,
Kansas Supreme Court; STEPHEN D.
HILL, Justice, Kansas Court of Appeals;
KIM R. SCHROEDER, Justice, Kansas
Court of Appeals; GORDON ATCHESON,
Justice, Kansas Court of Appeals;
JEROME GORMAN, Assistant District
Attorney/District Attorney, Wyandotte
County District Attorney’s Office;
DANIEL OBERMIER, Assistant District
Attorney, Wyandotte County District
Attorney’s Office; MARK DUPREE,
District Attorney, Wyandotte County
District Attorney’s Office; DON ASH,
Sheriff, Wyandotte County Sheriffs
Department; ROGER WERHOLTZ,
Secretary of Corrections, Kansas
Department of Corrections; RAY
ROBERTS, Secretary of Corrections,
Kansas Department of Corrections;
JOHNNIE GODDARD, Secretary of
Corrections, Kansas Department of
Corrections; JOE NORWOOD, Secretary
of Corrections, Kansas Department of

No. 20-3168
(D.C. No. 5:20-CV-03017-SAC)
(D. Kan.)

Appellate Case: 20-3168

Document: 010110442580

Date Filed: 11/24/2020

Page: 2

Corrections; JEFF ZMUDA, Secretary of
Corrections, Kansas Department of
Corrections; JEFF COWGER, Chief Legal
Counsel, Kansas Department of
Corrections; JOHN/JANE DOE (1),
Sentence Computation State Employees,
Kansas Department of Corrections; S.
SCRIBNER, ReEntry Department, Kansas
Department of Corrections; JOHN/JANE
DOE (2), ReEntry State Employees,
Kansas Department of Corrections;
JOHN/JANE DOE (3), ReEntry State
Employees, Kansas Department of
Corrections,
Defendants - Appellees.

ORDER AND JUDGMENT*

Before BRISCOE, BALDOCK, and CARSON, Circuit Judges.

Plaintiff-Appellant Ronald E. Johnson, who is in the custody of the Kansas
Department of Corrections, brings this pro se civil rights appeal under 42
U.S.C.§ 1983. Johnson appeals the district court’s dismissal of his complaint for
failure to state a claim, arguing that Kansas state courts’ denial of his habeas corpus
petition ignored a statutory provision that he believes mandates the adjustment of his

* After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
2

Appellate Case: 20-3168

Document: 010110442580

Date Filed: 11/24/2020

Page: 3

“hard 50” sentence. Exercising jurisdiction pursuant to 28 U.S.C. § 1291, we affirm
the district court’s dismissal of the complaint for failure to state a claim.
I
In 2003, Johnson was sentenced to life in prison without the possibility of
parole for 50 years (known as a “hard 50” sentence) pursuant to what was then
K.S.A. 21-4635 (now K.S.A. 21-6620). After several habeas corpus petitions in
Kansas state courts that were denied and affirmed on appeal, Johnson filed this
§ 1983 claim on January 15, 2020, seeking monetary damages and a modification of
his sentence. The complaint named the following defendants: eight state court judges,
the state attorney general, the district attorney, two assistant district attorneys, the
Wyandotte County Sheriff, nine KDOC employees, and legal counsel for KDOC.
The crux of Johnson’s claim before the district court was that the Kansas state
courts erred in denying his habeas corpus petition because the courts incorrectly ruled
that the Supreme Court’s decision in Alleyne v. United States, 570 U.S. 99, 103
(2013)—which held “that any fact that increases the mandatory minimum is an
‘element’ that must be submitted to the jury”—did not apply retroactively to
Johnson’s sentence, which became final before Alleyne. He also invoked K.S.A.
21 -6628(c) (formerly K.S.A. 21-4639(c)), a “fail-safe” provision in Kansas
sentencing law that mandates courts to re-sentence defendants in the event the statute
authorizing the defendant’s mandatory sentence is held unconstitutional.
In a May 5, 2020 order, the district court directed Johnson to show cause why
his complaint should not be dismissed because Johnson sought monetary relief from
3

Appellate Case: 20-3168

Document: 010110442580

Date Filed: 11/24/2020

Page: 4

defendants who were immune from suit and because Johnson sought release from
incarceration, despite the district court previously advising him that such relief must
be sought in a habeas action. Johnson filed a response and a proposed amended
complaint.
The district court ultimately dismissed Johnson’s complaint for failure to state
a claim after determining that his response to the show cause order and proposed
amended complaint failed to cure the deficiencies set forth in the court’s prior order.
Specifically, the district court held that Johnson’s challenge to his sentence was not a
cognizable § 1983 claim and the defendants were all entitled to either qualified or
absolute immunity. The district court additionally concluded that, at any rate, it did
not have jurisdiction to hear Johnson’s challenge to the Kansas state court rulings.
This timely appeal followed.
II
On appeal, Johnson presses the same theory he raised before the district court.
He again points to K.S.A. 21-6628(c), which says
In the event the mandatory term of imprisonment or any
provision of chapter 341 of the 1994 Session Laws of
Kansas authorizing such mandatory term is held to be
unconstitutional by the supreme court of Kansas or the
United States supreme court, the court having jurisdiction
over a person previously sentenced shall cause such person
to be brought before the court and shall modify the
sentence to require no mandatory term of imprisonment
and shall sentence the defendant as otherwise provided by
law.

4

Appellate Case: 20-3168

Document: 010110442580

Date Filed: 11/24/2020

Page: 5

Johnson maintains that this provision mandates the modification of his sentence,
since the procedures for the “hard 50” sentence in effect at the time he was sentenced
in 2003 allowed a judge, rather than a jury, to find aggravating facts that increased
the mandatory minimum sentence. Johnson correctly notes that the Kansas Supreme
Court, following the Supreme Court’s decision in Alleyne, held that this sentencing
procedure violated the Sixth Amendment. State v. Soto, 322 P.3d 334 (Kan. 2014).
......

But Johnson further contends that the Kansas Supreme Court’s decision in Kirtdoll v.
State, 393 P.3d 1053, 1057 (Kan. 2017), which held that “Alleyne cannot be applied
retroactively to cases that were final when Alleyne was decided,” is superseded by the
legislative command of K.S.A. 21-6628(c). Before addressing that argument, we
identify several reasons why Johnson fails to state a claim.
As a threshold matter, the district court correctly held that it lacked
jurisdiction to consider Johnson’s challenge to the Kansas state court decisions.
Under the Rooker-Feldman doctrine, “only the Supreme Court has jurisdiction to
hear appeals from final state court judgments. Federal district courts do not have
jurisdiction to review state court judgments or claims inextricably intertwined with
them.” Bear v. Patton, 451 F.3d 639, 641 (10th Cir. 2006) (citation omitted).
Next, to the extent Johnson challenges the validity of his sentence, such an
action is not cognizable as a § 1983 claim. “[A] § 1983 action is a proper remedy for
a state prisoner who is making a constitutional challenge to the conditions of his
prison life, but not to the fact or length of his custody.” Preiser v. Rodriguez, 411
U.S. 475, 499 (1973) (emphasis added). And to the extent Johnson seeks money
5

Appellate Case: 20-3168

Document: 010110442580

Date Filed: 11/24/2020

Page: 6

damages based on an invalid sentence, his claim is barred unless he first shows that
“[his] conviction or sentence has been reversed on direct appeal, expunged by
executive order, declared invalid by a state tribunal authorized to make such
determination, or called into questionjpy a federal court’sjssuance of a writ of habeas
corpus.” Heck v. Humphrey, 512 U.S. 477, 487 (1994). Johnson has not made that
required preliminary showing here. Accordingly, “[his] claim for damages ... is not
cognizable under § 1983.” Id.
At any rate, Johnson cannot overcome the immunity defenses applicable to
each named defendant. On appeal, Johnson mainly focuses on the judicial defendants,
arguing they improperly ignored K.S.A. 21-6628(c). But “a state judge is absolutely
immune from § 1983 liability except when the judge acts ‘in the clear absence of all
jurisdiction.’” Hunt v. Bennett, 17 F.3d 1263, 1266 (10th Cir. 1994) (quoting Stump
t------------

v. Sparkman, 435 U.S. 349, 356-57 (1978)). The district court correctly concluded
that Johnson alleges no facts suggesting that the defendant judges acted outside of
L...

/
/

their judicial capacity.

/

Even if Johnson could overcome those hurdles, his invocation of K.S.A.
21-6628(c) is unavailing. The Kansas Supreme Court has recently foreclosed the
application of K.S.A. 21-6628(c) in the manner Johnson urges. While this appeal was
pending, the Kansas Supreme Court held that K.S.A. 21-6628(c) “[b]y its clear and
unequivocal language . . . applies only when the term of imprisonment or the statute
authorizing the term of imprisonment are found to be unconstitutional.” State v.
Coleman, 472 P.3d 85, 92 (Kan. 2020). Neither of those situations are presented here.
6

Appellate Case: 20-3168

Document: 010110442580

Date Filed: 11/24/2020

Page: 7

Alleyne and Soto held only that the “procedural framework by which the enhanced
sentence was determined” was unconstitutional. Id. Those cases did not cast any
doubt on the substantive sentence Johnson received. Indeed, “hard 50 sentences have
never been determined to be categorically unconstitutional.” Id. Accordingly, the
“fail-safe” provision of K.S.A. 21-6628(c) requiring sentence modification is not
triggered here. See id.
Ill
For those reasons, we AFFIRM the district court’s dismissal of Johnson’s
complaint for failure to state a claim.
Entered for the Court

Mary Beck Briscoe
Circuit Judge

7

APPENDIX C

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit
December 28,2020

FOR THE TENTH CIRCUIT

Christopher M. Wolpert
Clerk of Court

RONALD E. JOHNSON,
Plaintiff - Appellant,

No. 20-3168
(D.C. No. 5:20-CV-03017-SAC)
(D. Kan.)

v.
DEREK SCHMIDT, Attorney General for
the State of Kansas, et al.,
Defendants - Appellees.
ORDER

Before BRISCOE, BALDOCK, and CARSON, Circuit Judges.
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court

CD.
CHRISTOPHER M. WOLPERT, Clerk

Additional material
from this filing is
available in the
Clerk's Office.

